<html>
<title> - IS NSF PROPERLY MANAGING ITS ROTATING STAFF?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                        IS NSF PROPERLY MANAGING
                          ITS ROTATING STAFF?

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON OVERSIGHT &
                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             June 25, 2015

                               __________

                           Serial No. 114-27

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://science.house.gov
       
       
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-567 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
       
       
       
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL                    ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
                                 ------                                

                       Subcommittee on Oversight

                 HON. BARRY LOUDERMILK, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         DON BEYER, Virginia
    Wisconsin                        ALAN GRAYSON, Florida
BILL POSEY, Florida                  ZOE LOFGREN, California
THOMAS MASSIE, Kentucky              EDDIE BERNICE JOHNSON, Texas
BILL JOHNSON, Ohio
DAN NEWHOUSE, Washington
LAMAR S. SMITH, Texas
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
MICHAEL T. MCCAUL, Texas             ELIZABETH H. ESTY, Connecticut
RANDY HULTGREN, Illinois             KATHERINE M. CLARK, Massachusetts
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
BRUCE WESTERMAN, Arkansas            SUZANNE BONAMICI, Oregon
DAN NEWHOUSE, Washington             ERIC SWALWELL, California
GARY PALMER, Alabama                 EDDIE BERNICE JOHNSON, Texas
RALPH LEE ABRAHAM, Louisiana
LAMAR S. SMITH, Texas
































                            C O N T E N T S

                             June 25, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barry Loudermilk, Chairman, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     5
    Written Statement............................................     6

Statement by Representative Donald S. Beyer, Jr., Ranking 
  Minority Member, Subcommittee on Oversight, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     7
    Written Statement............................................     9

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    10
    Written Statement............................................    11

                               Witnesses:

The Honorable Allison Lerner, Inspector General, National Science 

  Foundation
    Oral Statement...............................................    12
    Written Statement............................................    15

Dr. Richard Buckius, Chief Operating Officer, National Science 
  Foundation
    Oral Statement...............................................    26
    Written Statement............................................    28

Discussion.......................................................    32

             Appendix I: Answers to Post-Hearing Questions

Dr. Richard Buckius, Chief Operating Officer, National Science 
  Foundation.....................................................    44

            Appendix II: Additional Material for the Record

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    54

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    55

Report submitted by Representative Barry Loudermilk, Chairman, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    56

 
                        IS NSF PROPERLY MANAGING
                         ITS ROTATING STAFF?

                              ----------                              


                        THURSDAY, JUNE 25, 2015

                  House of Representatives,
                Subcommittee on Oversight &
           Subcommittee on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 9:34 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Barry 
Loudermilk [Chairman of the Subcommittee on Oversight] 
presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Loudermilk. The Committee on Science, Space, and 
Technology joint hearing of the Subcommittee on Oversight and 
the Subcommittee on Research and Technology will come to order.
    Without objection, the Chair is authorized to declare 
recess of the Committee at any time.
    Good morning and welcome to today's hearing titled ``Is NSF 
Managing Its Rotating Staff?'' I recognize myself now for five 
minutes for an opening statement.
    I would like to thank our witnesses for being here this 
morning, and I'm looking forward to hearing from both of you on 
this very important matter.
    We're here today to discuss the National Science 
Foundation's use of the Rotator Program, specifically, the 
individuals who are assigned through the Intergovernmental 
Personnel Act, or IPAs. These IPAs are top scientists, 
engineers, and educators from universities and industry who 
help staff the NSF on a temporary basis. In addition, the NSF 
employs Visiting Scientists, Engineers, and Educators, which, 
together with the IPAs, form the NSF Rotator Program.
    While the Rotator Program brings expertise, diverse skill 
sets, and fresh perspective to the NSF, IPAs come with a 
significant cost to the NSF, which is completely unacceptable. 
For example, these IPAs remain an employee of their home 
institution and their salaries are matched by the NSF 
throughout their tenure as an IPA, typically ranging from one 
to three years. In addition to salary matching, the NSF pays 
IPAs lost consulting fees, individual research and development 
travel, fringe benefits, and temporary living expenses.
    Considering that NSF employs 184 IPAs, which is 12 percent 
of the total NSF workforce, these costs add up very quickly. In 
fact, according to the 2013 NSF Inspector General report, IPAs 
cost the NSF $36,448 more per IPA on average than the average 
permanent federal employee, and in 2013, the NSF spent more 
than $6.7 million on IPA-related costs.
    When an agency is spending millions on rotating staff--not 
permanent staff--one would hope that they are the best-suited 
individuals for the positions they are filling. However, that 
doesn't appear to be the case with the NSF. In 2010, an NSF IG 
report found that IPAs in management-level positions at the NSF 
lacked institutional knowledge about the federal employment 
protocol, training, and expectations, all key management issues 
and functions.
    The NSF funds a variety of large research projects, 
including multiuser research facilities, tools for research and 
education, and distributed instrumentation networks. Taking 
into account that some of these IPAs come from organizations 
and institutions that would be interested in some of these 
funds, there is also the chance that if not properly managed, 
an IPA could have a conflict of interest with certain proposals 
and awards. The NSF IG recently released a report detailing a 
situation that falls into this category, which I am looking 
forward to learning more about today.
    As a small business owner, I unconditionally understand the 
need for accountability. The fact that these temporary staffers 
are being paid more money for jobs that they are not 
necessarily qualified for and have an inherent ability to take 
advantage of, is completely inexcusable. Without proper 
oversight, the NSF is wasting taxpayer dollars on individuals 
who make more money than they should for jobs they may not be 
qualified for in roles that are susceptible to conflicts of 
interest. This Committee has warned the NSF about the 
irresponsible spending over the past few years, and this is 
just another unfortunate example. When will the NSF take 
adequate measures to implement proper oversight, management, 
and plain responsibility?
    I look forward to today's hearing, which I anticipate will 
inform us more about IPAs at the NSF, the management of them, 
as well as the oversight and accountability of what they are 
being paid. We owe it to the American people to ensure that 
these assignments are not using hard-earned taxpayer money to 
overpay for subpar work. How does that seem fair?
    In the end, though, I hope that this hearing will bring to 
light the issue of rotating staff and inform us of--on how to 
provide better oversight and management of federally funded 
rotating staff to guarantee taxpayers that they can trust us 
with their money and know that it will be spent in the most 
efficient way.
    [The prepared statement of Chairman Loudermilk follows:]

              Prepared Statement of Oversight Subcommittee
                       Chairman Barry Loudermilk

    I would like to thank our witnesses for being here this morning. I 
am looking forward to hearing from you both on this very important 
matter.We are here today to discuss the National Science Foundation's 
(NSF) use of the ''rotator'' program, specifically, the individuals who 
are assigned through the Intergovernmental Personnel Act (IPAs).
    These IPAs are top scientists, engineers, and educators from 
universities and industry who help staff the NSF on a temporary basis. 
In addition, the NSF employs Visiting Scientists, Engineers, and 
Educators (VSEEs), which together with the IPAs form the NSF 
``rotator'' program.
    While the ``rotator'' program brings expertise, diverse skill sets, 
and fresh perspectives to the NSF, IPAs come with a significant cost to 
the NSF, which is completely unacceptable. For example, these IPAs 
remain an employee of their home institution and their salaries are 
matched by the NSF throughout their tenure as an IPA, typically ranging 
from one to three years. In addition to salary matching, the NSF pays 
IPAs lost consulting fees, individual research and development travel, 
fringe benefits, and temporary living expenses.
    Considering that NSF employs 184 IPAs, which is 12% of the total 
NSF workforce, these costs add up very quickly. In fact, according to a 
2013 NSF Inspector General report, IPAs cost the NSF $36,448 more per 
IPA on average than the average permanent federal employee, and in 
2013, the NSF spentmore than $6.7 million on IPA-related costs.
    When an agency is spending millions on rotating staff--not 
permanent staff--one would hope that they are the best suited 
individuals for the positions they are filling. However, that doesn't 
appear to be the case with the NSF. In 2010, an NSF IG report found 
that IPAs in management-level positions at the NSF lacked institutional 
knowledge about federal employment protocol, training, and 
expectations--all key management issues and functions.
    The NSF funds a variety of large research projects, including 
multi-user research facilities, tools for research and education, and 
distributed instrumentation networks. Taking into account that some of 
these IPAs come from organizations and institutions that would be 
interested in some of these funds, there is also the chance that if not 
properly managed, an IPA could have a conflict of interest with certain 
proposals and awards. The NSF IG recently released a report detailing a 
situation that falls into this category, which I am looking forward to 
learning more about today.
    As a small business owner, I unconditionally understand the need 
for accountability. The fact that these temporary staffers are being 
paid more money for jobs that they are not necessarily qualified for 
and have an inherent ability to take advantage of, is completely 
inexcusable. Without proper oversight, the NSF is wasting taxpayer 
dollars on individuals who make more money than they should for jobs 
they may not be qualified for in roles that are susceptible to 
conflicts of interest. This Committee has warned the NSF about 
irresponsible spending over the past few years, and this is just 
another unfortunate example. When will the NSF take adequate measures 
to implement proper oversight, management, and plain responsibility?
    I look forward to today's hearing, which I anticipate will inform 
us more about IPAs at the NSF--the management of them as well as the 
oversight and accountability of what they are being paid. We owe it to 
the American people to ensure that these assignments are not using 
hard-earned taxpayer money tooverpay for sub-par work. How does that 
seem fair? In the end, though, I hope that this hearing will bring to 
light the issue of rotating staff and inform us on how to provide 
better oversight and management of federally-funded rotating staff to 
guarantee taxpayers that they can trust us with their money and know 
that it will be spent in the most efficient way.

    Chairman Loudermilk. I now recognize the Ranking Member of 
the Subcommittee on Oversight, the gentleman from Virginia, Mr. 
Beyer, for an opening statement.
    Mr. Beyer. Thank you, Mr. Chairman.
    The National Science Foundation employs thousands of 
hardworking scientists and staff, many of whom live in my 
district, and I value the tremendous benefit that the agency 
has brought to America and Americans over the past 65 years by 
supporting a wide range of scientific discoveries that have 
improved our understanding of every facet of the world around 
us.
    As with any organization, public or private, sometimes 
problems emerge. Management improvements can be made and 
administrative oversight enhanced. Today's hearing will focus 
on the management and oversight of the NSF's Rotator Program.
    The NSF's Rotator Program, primarily Intergovernmental 
Personnel Act positions, allows nonfederal employees from 
academic institutions and research labs to work at NSF for a 
temporary period of up to four years. The advantage of this 
program is that it guarantees a continuous infusion of scholars 
at the forefronts of their fields.
    This approach to staffing is similar to another program 
that has long been viewed as one of the most valuable in the 
U.S. Government, in fact, the most valuable in the world, the 
Defense Advanced Research Projects Agency. DARPA also relies on 
rotators to come in and manage research portfolios focused on 
innovative emerging research.
    While there are obvious benefits to this program, it's 
impossible to use such a system without running some risks. IPA 
staff are not necessarily trained managers but fill 
professional staff positions, and as NSF relies on the IPA 
program to fill positions far in excess of other federal 
agencies, this can cause some problems among rank-and-file 
employees. IPAs have also not been brought up through the civil 
service ranks with an appreciation of the importance of 
avoiding conflicts of interest.
    Each year, NSF provides around $7 billion in grant awards 
and cooperative agreements to academic institutions. It's 
widely praised for the efficiency of its grants management 
system and widely copied by foreign governments looking to spur 
creativity and innovation.
    However, when employees of grant-receiving institutions 
come to NSF on temporary assignment, it's important that the 
Foundation routinely ensure that each rotator is properly 
trained and monitored to ensure they manage their portfolio 
wisely and in compliance with the law. The Foundation must take 
prompt steps to identify potential conflicts of interest and 
that the rotators have the proper training to understand their 
obligations to avoid violating conflict-of-interest rules at 
the agency.
    Today, we'll hear from the Inspector General about a single 
rotator who failed to meet obligations for disclosing conflicts 
and for taking ethics training. The IG found that the 
individual was involved in three grant decisions where 
inappropriate ties to the grant recipient call into question 
the integrity of the award. It's hard to determine whether the 
degree of this one failing represents systemic issues with the 
way NSF manages IPAs or whether it's just an unfortunate one 
off failing, but I agree with the IG that this incident points 
to broader management issues regarding NSF's oversight of the 
Rotator Program, and the recommendations contained in their 
report seem reasonable and obviously overdue.
    I know NSF has not had much time to evaluate the specific 
recommendations, but I believe that where management problems 
exist, they need to be quickly fixed. Where conflicts of 
interest emerge, they need to be removed and rectified, and the 
public has to have confidence that NSF is managing its funds 
with absolute integrity.
    These new recommendations regarding conflict-of-interest 
policies join a standing list of other Inspector General 
recommendations on the program that were designed to control 
the costs of that program. While NSF has moved to put some of 
these changes in place, I'm disappointed to learn that those 
reforms have been moving a very, very slow track.
    Without endorsing any particular recommendation at this 
time, NSF should know that we, the members of this Oversight 
Committee, expect this leadership to do more and quickly in 
this area. I believe that the Rotator Program as a whole can 
bring great benefit to NSF and to the Federal Government. It 
helps to spark fresh and innovative ideas, it fosters 
collaboration between the Federal Government and America's 
intellectually rich academic community and improves the 
advancement of scientific discoveries and cutting-edge 
technological developments on a wide range of subjects.
    As we strive to promote greater economic efficiencies on 
the NSF Rotator Program, I believe it's important to keep the 
benefits of the program in mind. One bad case does not a crisis 
make and the Committee would be well-served to keep this in 
mind. We read the sad story of the two-star Army General this 
week in trouble. We've watched how various Members of our 
Congress have been in trouble just this year, and we don't want 
to throw out the baby with the bathwater.
    I look forward to hearing from our two witnesses about--
both about the issues that have been identified but the acts 
that you've taken to correct them.
    Thanks very much, Mr. Chairman. I yield back.
    [The prepared statement of Mr. Beyer follows:]

            Prepared Statement of Subcommittee on Oversight
              Minority Ranking Member Donald S. Beyer, Jr.

    The National Science Foundation (NSF) employs thousands of hard-
working scientists and staff, many of whom live in my district. I value 
the tremendous benefit that the agency has brought to America and 
Americans over the past 65 years by supporting a wide range of 
scientific discoveries that have improved our understanding of every 
facet of the world around us.
    As with any organization, public or private, problems sometimes 
emerge. Management improvements can be made and administrative 
oversight enhanced. Today's hearing will focus on the management and 
oversight of the NSF's ``Rotator'' program.
    The NSF's rotator program, primarily Intergovernmental Personnel 
Act positions, allows nonfederal employees from academic institutions 
and research labs to work at NSF for a temporary period of up to four 
years.
    The advantage of this program is that it guarantees a continuous 
infusion of scholars at the forefront of their fields. This approach to 
staffing is similar to another program that has long been viewed as one 
of the most valuable in the U.S. government: the Defense Advanced 
Research Projects Agency. DARPA also relies on ``rotators'' to come in 
and manage research portfolios focused on innovative, emerging 
research.
    While there are obvious benefits to this program, it is impossible 
to use such a system without running some risks. IPA staff are not 
necessarily trained managers, but fill professional staff positions. 
And NSF relies on the IPA program to fill positions far in excess of 
any other federal agency. This can cause some problems among the rank 
and file employees. IPA's also have not been brought up through the 
Civil Service ranks with an appreciation of the importance of avoiding 
conflicts of interest.
    Each year, NSF provides around $7 billion in grant awards and 
cooperative agreements to academic institutions. NSF is widely praised 
for the efficiency of its grants management system, and widely copied 
by foreign governments looking to spur creativity and innovation. 
However, when employees of grant-receiving institutions come to NSF on 
temporary assignment it is important that the Foundation routinely 
insure that each rotator is properly trained and monitored to insure 
they manage their portfolio wisely and in compliance with the law. The 
Foundation must take prompt steps to identify potential Conflicts-of-
Interest and that rotators have the proper training to understand their 
obligations to avoid violating conflict of interest rules at the 
agency.
    Today, we will hear from the NSF IG about a single rotator who 
failed to meet obligations for disclosing conflicts and for taking 
ethics training. The IG found that the individual was involved in three 
grant decisions where inappropriate ties to the grant recipient calls 
into question the integrity of the award.
    It is hard to determine the degree to which this one failing 
represents systemic issues with the way NSF manages IPAs, or whether it 
is an unfortunate ``one-off'' failing. I agree with the IG that this 
incident points to broader management issues regarding NSF's oversight 
of the rotator program and the recommendations contained in their 
report seem reasonable, and perhaps obviously overdue. I know NSF has 
not had much time to evaluate the specificrecommendations, but I 
believe that where management problems exist they need to be quickly 
fixed. Where conflicts-of-interest emerge they need to be removed and 
rectified. The public has to have confidence that NSF is managing funds 
with absolute integrity.
    These new recommendations regarding conflicts of interest policies 
join a standing list of other IG recommendations on the IPA program 
that were designed to control costs in those programs. While NSF has 
moved to put some of those changes in place, I am disappointed to learn 
that those reforms have been on a very, very slow track. Without 
endorsing any particular recommendation at this time, NSF should know 
that I expect its leadership to do more and more quickly in this area.
    I believe the Rotator program as a whole can bring great benefit to 
NSF and to the federal government. The program helps to spark fresh and 
innovative ideas. It fosters collaboration between the federal 
government and America's intellectually rich academic community. It 
improves the advancement of scientific discoveries and cutting edge 
technological developments in a wide range of subjects.
    As we strive to promote greater economic efficiencies on the NSF 
rotator program and endeavor to enhance the agency's administrative 
management and oversight of potential Conflicts of Interest I believe 
it is important to keep the benefits of the program in mind. One bad 
case does not a crisis make and the Committee would be well served to 
keep this in mind.
    I look forward to hearing from our two witnesses both about the 
issues that have been identified and the actions that have been taken 
to correct them.
    Thank you very much. With that I yield back.

    Chairman Loudermilk. Thank you, Mr. Beyer.
    If there are any Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    At this point I ask unanimous consent to enter documents 
into the record.
    Without objection.
    Chairman Loudermilk. At this time I'd like to introduce our 
witnesses. Our first witness is Ms. Allison Lerner. Ms. Lerner 
is the Inspector General for the National Science Foundation, 
or the NSF. Before joining the NSF in April 2009, Ms. Lerner 
served in many leadership positions at the Department of 
Commerce, including counsel to the Inspector General. She has 
received several national awards for excellence and was 
selected to be a member of the Government Accountability and 
Transparency Board by the President in June 2011. Ms. Lerner 
received her law and undergraduate degrees from the University 
of Texas.
    The final witness today--on today's panel is Dr. Richard 
Buckius. Dr. Buckius is the Chief Operating Officer for the 
NSF. Mr. Buckius assumed his position of COO in October 2014, 
having previously been a Senior Policy Advisor for NSF. He is 
an author and coauthor of numerous publications on the topics 
of radiation, heat transfer, numerical fluid mechanics and 
combustion. Dr. Buckius received his bachelor's, master's and 
Ph.D. in mechanical engineering at the University of 
California, Berkeley.
    At this point the Chair would like to recognize the--I'd 
like to recognize the Ranking Member of the Subcommittee on 
Research and Technology, the gentleman from Illinois, Mr. 
Lipinski, for her opening statement.
    Mr. Lipinski. Well, kind of close.
    Chairman Loudermilk. Or his. I'm sorry, sir.
    Mr. Lipinski. Thank you.
    Chairman Loudermilk. You're--my apologies. Instead of--I 
thought I was--I had it right and then I read the script.
    Mr. Lipinski. That's always a mistake.
    Chairman Loudermilk. Yes.
    Mr. Lipinski. Well, I----
    Chairman Loudermilk. My apologies.
    Mr. Lipinski. I apologize for being late. I understand we 
had to move this up because of votes.
    I want to thank Chairman Loudermilk and Chairwoman Comstock 
for holding this hearing on NSF's management of the IPA Rotator 
Program. I want to thank Dr. Buckius and Ms. Lerner for being 
here. Good morning.
    I--you know, we know what the issues are. Reports issued by 
the NSF Inspector General over the last few years, including 
last Friday's report, make it clear that there are some 
management and oversight issues with the Rotator Program that 
are worthy of our concern and attention. However, as we pursue 
our oversight responsibilities, we should not lose sight of the 
tremendous value that the Rotator Program brings to NSF and to 
the scientific community.
    NSF has a very talented workforce across the board. Long-
term federal employees serving in program officer and executive 
positions come to the agency with many years of experience in 
scientific research, as well as in managing program budgets in 
participating NSF grant review process. Those recruited to 
executive positions are also experienced managers. After 
several years at NSF, their institutional memory and knowledge 
of federal rules and regulations is invaluable.
    But we also know that rotators also come to NSF with many 
years of experience and similar skills. And what makes the 
Rotator Program unique and essential is that rotators provide a 
constant influx of new ideas, new perspectives, and a frontline 
understanding of emerging trends in science and engineering. As 
such, they are particularly well placed to evaluate high-risk, 
high-reward research proposals and ensure that NSF continues to 
support a portfolio that includes transformative research, a 
topic which we discuss often in this committee.
    While exploring options to strengthen management of the 
program and to implement cost controls, we should not even 
unintentionally take steps that compromise the benefits this 
program provides to the agency and to scientific progress.
    Now, having said that, the Inspector General has raised 
several issues in the last few years that warrant our review. 
From the cost associated with the IPA program to the management 
benefits such as independent research and development and the 
requirements such as ethics training, there is room for 
improvement. The Foundation received the most recent report on 
a conflict-of-interest case only last Friday, giving them 
little time to review the specific recommendations. It might 
have been better, perhaps, to postpone this hearing by a couple 
months. However, we are here today.
    This particular case dates back to 2013, so I expect Dr. 
Buckius will be able to share with us some of his thinking 
about what went wrong in terms of management controls and how 
procedures can be tightened up going forward. I also hope that 
Dr. Buckius will be able to share with us actions NSF has taken 
since the 2012 and 2013 IG reports to strengthen management and 
oversight of other aspects of the Rotator Program.
    In no way do I want to diminish the issues that have been 
raised. We need to make sure that we are providing oversight 
and that NSF is responding appropriately to the findings.
    I want to thank the witnesses for being here, I look 
forward to your testimony. Thank you.
    [The prepared statement of Mr. Lipinski follows:]

      Prepared Statement of Subcommittee on Research & Technology
                Minority Ranking Member Daniel Lipinski

    Thank you, Chairman Loudermilk and Chairwoman Comstock for holding 
this hearing on NSF's management of the IPA Rotator program. And good 
morning to Dr. Buckius and Ms. Lerner.
    Reports issued by the NSF Inspector General over the last few 
years, including last Friday's report, make it clear that there are 
some management and oversight issues with the rotator program that are 
worthy of our concern and attention. However, as we pursue our 
oversight responsibilities, we should not lose sight of the tremendous 
value that the rotator program brings to NSF and to the scientific 
community.
    NSF has a very talented workforce across the board. Long-term 
federal employees serving in program officer and executive positions 
come to the agency with many years of experience in scientific research 
as well as in managing program budgets and participating in the NSF 
grant review process. Those recruited to executive positions are also 
experienced managers. After several years at NSF, their institutional 
memory and knowledge of federal rules and regulations is invaluable.
    Rotators also come to NSF with many years of experience and similar 
skills. What makes the rotator program unique and essential is that 
rotators provide a constant influx of new ideas, new perspectives, and 
a front-line understanding of emerging trends in science and 
engineering. As such, they are particularly well-placed to evaluate 
high-risk, high-reward research proposals and ensure that NSF continues 
to support a portfolio that includes transformative research, a topic 
we discuss often in this committee. While exploring options to 
strengthen management of the program and to implement cost controls, we 
should not--even unintentionally--take any steps that compromise the 
benefits this program provides to the agency and to scientific 
progress.
    Having said that, the Inspector General has raised several issues 
in the last few years that warrant our review. From the costs 
associated with the IPA program, to the management of benefits--such as 
Independent Research & Development, and requirements--such as ethics 
training, there is room for improvement.
    The Foundation received the most recent report on a Conflict of 
Interest case only last Friday, giving them little time to review the 
specific recommendations. It might have been better, perhaps, to 
postpone this hearing by a couple of months. However, we are here 
today, and this particular case dates back to 2013, so I expect Dr. 
Buckius will be able to share with us some of his thinking about what 
went wrong in terms of management controls, and how procedures can be 
tightened up going forward. I also hope that Dr. Buckius will be able 
to share with us actions NSF has taken since the 2012 and 2013 IG 
reports to strengthen management and oversight of other aspects of the 
rotator program.
    I thank the witnesses for being here today and I look forward to 
their testimony. I yield back.

    Chairman Loudermilk. Again, thank you, Mr. Lipinski, and 
again, my sincere apologies.
    Pursuant to the committee rules, all witnesses will be 
sworn in before they testify. If you'll please rise and raise 
your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth, so help you God?
    Let the record reflect that the witnesses answered in the 
affirmative.
    Before we begin, I will request that our witnesses please 
limit your testimony to five minutes. It seems there will be 
another series of votes called in about an hour and I want to 
make sure that we have time for discussion. Your entire written 
statement will be made part of the record.
    I now recognize Ms. Lerner for five minutes to present her 
testimony.

           TESTIMONY OF THE HONORABLE ALLISON LERNER,

                       INSPECTOR GENERAL,

                  NATIONAL SCIENCE FOUNDATION

    Ms. Lerner. Mr. Chairman and Members of the Subcommittee, I 
appreciate this opportunity to discuss my office's oversight of 
NSF's management of its rotating staff, especially assignments 
under the Intergovernmental Personnel Act. I'll focus on 
recommendations made in three audits completed by my office, 
one on cost associated with NSF's use of rotators, a second on 
personnel management issues related to rotators, and a third on 
NSF's management and oversight of the Independent Research and 
Development program, or IR/D.
    Finally, since rotators often make funding decisions, I'll 
discuss a recent investigative report which identified ways for 
NSF to improve its controls to identify and mitigate rotators' 
conflicts of interest.
    To advance its mission of supporting science and 
engineering research and education, NSF brings scientists, 
engineers, and educators from academia, industry, or other 
organizations to the Foundation for rotational assignments of 
up to four years. While there are definitely benefits that come 
from having rotators at NSF, there are also challenges. For 
example, because of rotators' limited tenure, there's almost 
constant turnover in staff, especially in senior leadership 
positions. Other challenges include higher cost for rotators 
and rotators' lack of familiarity with government processes and 
culture.
    The additional cost of using rotators instead of permanent 
federal employees is considerable. We found that NSF paid an 
added cost of approximately $6.7 million or an average of over 
$36,000 per IPA for the 184 IPAs we looked at in a 2013 audit. 
We recommended that NSF evaluate ways to reduce these costs 
such as increasing rotators' use of telework, increasing cost-
sharing by home institutions, and limiting salary to the 
maximum federal pay rate for the position. NSF has developed a 
plan to examine rotator costs, but much work remains to be done 
to accomplish the actions included in that plan.
    NSF's reliance on rotators also poses personnel management 
challenges. For example, at the time of our 2010 audit, NSF did 
not require rotators to have annual performance evaluations 
even though they functioned in the same capacity as NSF's 
federal executives who are evaluated each year. As a result, 
NSF risks not holding IPAs accountable as it does federal 
employees for accomplishing NSF's missions and goals. In 
response to our recommendations, NSF has put all IPAs under a 
performance management system and reports that it received 117 
IPA appraisals in the most recent cycle.
    We also examined controls over NSF's IR/D program, which is 
utilized primarily by rotators to maintain their professional 
competencies and remain actively involved with their research 
while at NSF. At the time of our 2012 audit, NSF policy allowed 
IR/D participants to spend up to 50 days a year, or 20 percent 
of their time, on IR/D activities. In 2010, IR/D travel costs 
were $1.8 million. Rotators and other visiting scientists took 
90 percent of the IR/D trips during this period. Since our 
audit, the Foundation has strengthened oversight of the IR/D 
program and taken steps to reduce its costs.
    In light of the Foundation's reliance on rotators to make 
funding decisions, it's critical that strong controls be in 
place to identify and mitigate conflicts of interest that occur 
as a result of rotators' research activities or their 
connections with their home institutions. Such controls protect 
rotators, many of whom have never worked in a federal 
environment, as well as the Foundation itself.
    A recent investigative report documented problems with 
controls over COIs that we identified in the context of one 
rotator's tenure at NSF. We found that no concrete plan to 
manage the rotator's known conflict was developed and 
communicated, that there were significant delays in the 
rotator's completion of a required ethics course and her 
submission of a required financial disclosure form, that 
actions taken to assess the impact of the rotator's conflicts 
of interest on an award she made were seriously flawed, that 
the names of the persons who wrote the justification for 
funding and who actually made the decision to fund the award 
with which the rotator had conflicts were not included in NSF's 
system of record, undermining the agency's ability to identify 
and mitigate conflicts of interest, and that a critical tool 
used to enforce the one-year cooling-off period following the 
rotator's tenure at NSF was circumvented.
    We recommended that NSF take various actions to strengthen 
its controls over conflicts. Since we just issued our 
investigative report last week, the agency has not had an 
opportunity to formally respond.
    Rotating staff are an important component of NSF's 
workforce and bring valuable experience to the Foundation. 
While we recognize the significant contributions made by 
rotators, it's essential for NSF to examine the cost associated 
with the rotator program to ensure that federal funds entrusted 
to the Foundation are being spent effectively and efficiently. 
It's also critical that funding justifications and 
recommendations made by rotators be free from conflicts of 
interest, as the integrity of those decisions is essential to 
NSF's merit review process.
    My office remains committed to providing rigorous and 
dependent oversight of NSF's management of its rotating staff 
and will continue to work with the Foundation and the Congress 
to this end.
    I'd be happy to answer any questions.
    [The prepared statement of Ms. Lerner follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Loudermilk. Thank you, Ms. Lerner.
    I now recognize Dr. Buckius for five minutes to present his 
testimony.

               TESTIMONY OF DR. RICHARD BUCKIUS,

                    CHIEF OPERATING OFFICER,

                  NATIONAL SCIENCE FOUNDATION

    Dr. Buckius. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman. Members of the Committee, thank you for the 
opportunity to discuss NSF's Rotator Programs particularly, as 
you've heard, the IPA assignments.
    NSF supports fundamental research at the frontier across 
all fields of science and engineering through an investment in 
more than 42,000 active awards. NSF seeks to create and exploit 
new concepts in science and engineering and provide global 
leadership in research and education. This requires NSF to 
create an ever-changing vision for the future innovations and 
provide the resources to make vision into a reality. The 
expertise needed to carry out this work is constantly changing. 
The challenge for NSF is to blend change with continuity in 
managing our merit review process and overseeing our awards.
    A mix of federal employees and rotators, some of whom are 
IPAs, is essential to NSF. Experienced federal employees 
provide continuity of scientific expertise, management, and 
oversight, while rotators come from across the country with new 
perspectives in science, engineering, and education. Because 
NSF supports fundamental research at the frontier, NSF relies 
on a mix of federal employees and rotators for a constant 
infusion of new knowledge into the structure of the rigorous 
merit review process and post-award oversight.
    The scientific community sees serving as a rotator at NSF 
as a public service. The opportunity to serve, while expanding 
the rotator's scientific perspectives, can disrupt the 
rotator's personal life and lead to a loss in continuity at the 
home institution. The IPA's home institution benefits from the 
experience and expertise the IPA gains but it does not have 
access to the faculty members, contributions, and all the usual 
functions during the IPA assignment. Therefore, it is important 
for NSF to avoid negative impacts on these rotators who choose 
to engage in the public service.
    NSF costs and the oversight of our staff are continually 
monitored. Reducing our overhead cost to fund discoverers and 
discoveries is always a goal, and this must be balanced with 
the impact on our programs and the community. In the case of 
IPAs, NSF requests cost-sharing from all potential rotators and 
scrutinizes all salaries above the maximum federal rate.
    While rotators perform their responsibilities at NSF, they 
are not allowed to handle any matters related to their home 
institution and are subject to NSF policies on conflict of 
interest, performance, training, and conduct. Like federal 
employees, rotators must follow conflict-of-interest statutes, 
as well as government-wide ethics regulations.
    To bolster the awareness and compliance of these statutes 
and regulations, IPAs, like other federal colleagues, are 
subject to mandatory conflict-of-interest training. Also like 
other federal employees, IPAs provide performance plans for 
their IPA service.
    The Foundation has benefited from the Office of the 
Inspector General reports on opportunities to improve the NSF 
IPA programs. As she has referred, the 2010 OIG report noted 
the importance in incorporating the IPAs in the agency's Formal 
Performance Management System. NSF responded by taking action 
to incorporate all IPAs, including those operating at and below 
the executive level, into the agency's Formal Performance 
Management System. The OIG recommendation was satisfied the 
very next year. The change ensures that IPAs are held 
accountable to the agency and to the taxpayers.
    This approach to accountability is also applied to NSF's 
Independent Research and Development Program, IR/D. In response 
to the OIG management report that identified internal control 
issues on our IR/D program, NSF immediately formed a task group 
and proposed changes. In 2012 the OIG auditors favorably 
reviewed the task force recommendations and suggested 
additional controls. NSF put those controls in place. The IR/D 
program, available to federal employees and rotators, now has 
much more accountability.
    I recognize that the OIG released a new report last Friday 
focused on the management of conflict of interest of our 
rotators. It is important to note that this was one specific 
case. Well before the release of the OIG report, the agency 
worked to address the situation and hold individuals 
accountable.
    My written testimony does not address the report's 
recommendations due to the timing of its release. I would like 
to thank the IG, though, for her support of NSF and for her 
concerns about the integrity of the IPA program.
    Mr. Chairman, members of the Committee, bringing 
scientists, engineers, and educators from the community to join 
NSF's permanent staff contributes to the NSF mission of 
advancing the progress of science and its strategic goals of 
transforming the frontiers and addressing national needs. The 
Rotator Programs at NSF, including the IPA assignments, are 
essential elements of achieving NSF's mission. With the support 
of the OIG and Congress, the Foundation will continue to 
enhance these programs to best serve science and technology in 
the national interest.
    Thank you again for the opportunity to testify and I look 
forward to answering your questions.
    [The prepared statement of Dr. Buckius follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Chairman Loudermilk. Thank you to both of our witnesses for 
being here today, and now we're going to begin our questioning. 
And the Chair recognizes himself for five minutes.
    As I mentioned in my opening statement, the IG found that 
in 2013 the NSF spent more than $6.7 million on IPA-related 
costs, with the NSF spending on average $33,448 more on IPA 
assignments than average permanent federal employees. These 
costs include salary matching, lost consulting fees, individual 
research and development travel, fringe benefits, and temporary 
living expenses.
    Dr. Buckius, of that $6.7 million spent in 2013, how much 
of it was spent on these varying costs that I just mentioned?
    Dr. Buckius. You want the fractions on each one of those?
    Chairman Loudermilk. Yes, sir.
    Dr. Buckius. The biggest one is $3 million in salaries of 
the $6.7 million. It's important to note, too, if you read her 
report carefully, on a footnote it only provides you the 
numbers for those that are above the federal rate. If you 
include those that are below the federal rate, the net gain is 
only half of that, $1.5 million. The other costs, lost 
consulting fees, location allowance, and IR/D are accurate as 
far as we can tell.
    It's also important to note, though, that the IR/D is 
available to all rotators and federal employees at NSF. Only 63 
percent of those allocations are to IPAs. The rest goes to 
federal employees and visitors. So it's not only available to 
IPAs.
    Chairman Loudermilk. Okay. Thank you.
    Can you tell me, what did the National Science Foundation 
spend in 2014 on IPA-related costs?
    Dr. Buckius. I'm sorry. I can get you that number. I don't 
have that with me.
    Chairman Loudermilk. Okay. You don't?
    Dr. Buckius. No, I do not.
    Chairman Loudermilk. Mrs. Lerner, do you know what that 
number is?
    Ms. Lerner. I do not.
    Chairman Loudermilk. Okay. That'll be helpful if you could 
get back with us on that number.
    Dr. Buckius, how do you justify the additional cost these 
IPA assignments--of these IPA assignments than what you pay the 
average permanent federal employee?
    Dr. Buckius. As it's been discussed by Ms. Lerner, as well 
as Mr. Lipinski, this is a very different agency than a lot of 
the other agencies. The Rotator Program is an absolutely 
essential part of our program. We have very, very excellent 
federal employees that give us the continuity, but we don't 
have the ability--unlike, say, DOE that has staff that does 
research at the forefront, has facilities at the forefront. We 
don't do that. That's not in our mission. By bringing these 
forefront leaders into our agency, they're able to bring that 
new expertise, and bring that new knowledge, bring the ability 
to change into our agency. This is essential to our agency.
    The costs that we have to pay, we want to make sure that we 
can recruit the best possible leaders and scholars to come and 
help this agency. Therefore, we really need to be able to pay 
market-force value for these folks in order to get them to come 
to the agency and serve.
    Chairman Loudermilk. Can I ask you, is--what benefit do 
these scientists and other IPAs have leaving their permanent 
job to take a leave of absence or whatever to come to NSF?
    Dr. Buckius. Okay. Let me just preface this with I am an 
IPA and I was a department head, and I also was an AD, and so 
I've been on all sides of this issue. As a rotator, when they 
first come, which I did in '88, you're trying to manage your 
program at the university, your students, and you're trying to 
also manage the portfolio that you're having to access at NSF. 
I would argue most IPAs that are involved in this probably work 
more than 40 hours a week for sure just in order to make it all 
work. Your family sometimes stays at home. You then come and 
spend your time here. In all fairness, it's a 24/7 kind of a 
job because you don't have your family with you, so you spend a 
lot of time doing it.
    The home institution, though, gains, too, so I don't want 
to ever belittle that. By bringing the IPA back, the IPA then 
has a much broader perspective of what the country's about, 
what the research is about, and that will help--that will 
definitely help the home unit.
    But, unfortunately, the home unit doesn't gain all the 
other attributes that the faculty member provides, committee 
work, general advising, and issues that relate to the community 
aspects of a department. You lost all that. So the department 
gains and loses: the IPA gains and loses.
    What happens, though, is when you're on the side of NSF and 
we want to recruit these top scholars and we want them to come, 
we don't want to have any impediments that'll make it more 
difficult for them to come. As a department head also, I often 
don't want them to go either because I need them as a 
department head. It's this constant balance. I think the way 
we've done it so far, everybody gains and everybody loses, and 
I think that's probably the fairest way we can go.
    Chairman Loudermilk. One last question. I see I'm running 
out of time and I'll be respectful of everyone's time. Is there 
a recruitment issue or do you have a backlog of those that want 
to be IPAs?
    Dr. Buckius. It is a recruitment issue. We often don't get 
the people we want for all the commitments that I've just said. 
Individuals, when they consider coming to NSF, it really 
affects their long-term career programs, their research 
programs, and they have to balance that with the public 
service.
    Chairman Loudermilk. Are you fully staffed now?
    Dr. Buckius. In IPAs, no. We can go up to 195 and I think 
you said we're at 180. We've been down to as low as 173.
    Chairman Loudermilk. Okay. Thank you. I see my time is 
expired and I now recognize Mr. Beyer for five minutes.
    Mr. Beyer. Thank you, Mr. Chairman.
    Dr. Buckius, I was going to ask you a question about can 
full-time, long-term government employees provide the same kind 
of insight and creativity in science that these IPAs do? And I 
think you've done a great job answering that. I am concerned, 
though, that the same argument could be made for many other 
government agencies, for example, the Department of Justice 
where I see lots of sort of mid-career brilliant attorneys 
stolen out of private practice who come work for the same 
governmental maximum for three, four, six years in order to 
contribute their expertise on terrorism, on financing, and lots 
of interesting things.
    And--but I'm also particularly aware of the balance between 
outside people who come in and the long-term federal employees. 
I was a politically appointed ambassador, and so I'm very 
sensitive to how that affected the morale of the career foreign 
service officers who perhaps didn't get a chance to be 
ambassador because these political guys were there.
    So I look at the numbers, the ones that I have at least, of 
the seven Assistant Directors, six are IPAs; of the 32 Division 
Directors, 24 are IPAs. If so many of these top-level positions 
are filled by IPAs, doesn't it give the rank-and-file federal 
service worker not much hope for career advancement? And what 
is the effect on morale?
    Dr. Buckius. That's a very difficult question for me to 
answer. I have heard of a few complaints, really very few 
though, by the career federal employees regarding their 
interactions with the IPAs. They also gain a lot, too, right? 
If I'm a federal employee running a program, and I have an IPA 
that comes in and runs a similar program, I get to exchange 
creative ideas where the IPA can bring to the forefront ideas 
where I might not have that experience. Even individual, at the 
one-on-one kind of levels, there's a lot to be gained.
    Regarding the executive service, I think you're accurate. I 
think that the percentage of IPAs in our most senior leadership 
positions is larger than the overall fraction of IPAs in the 
agency. We do, though, have a number of federal employees that 
end up being our Division Directors, as well as our office 
heads, and so it's not that it's closed out; it's just that 
it's not as probable.
    Typically, though, I noted a couple of comments that IPAs 
don't bring the federal experience to these leadership roles. 
That's a true statement, but they bring a lot of leadership. We 
have folks that have led major departments, led major colleges, 
in the case of engineering, around this country. They have a 
lot of leadership skills. They just might have to get a little 
more fine-tuned on the federal issues. But by and large I think 
they're really superb leaders.
    Mr. Beyer. You jumped ahead to another question I had, 
which is what necessarily makes a great scientist a great 
manager because I don't see them as equivalent at all.
    Dr. Buckius. I think you're right, and I'll agree with 
that. There are some scientists, and engineers, who probably 
shouldn't be leaders. They're much better doing the fundamental 
research and leading students. Then there are those that 
actually have a very strong research portfolio, and they also 
are very good leaders. In the case I just referred to we have 
deans and department heads who are leading major, major units 
around this country who come to NSF and impart that leadership 
ability into the agency, and I think it's really valuable.
    Mr. Beyer. Doctor, let me get to what seems to me perhaps 
the most existential question here, and forgive me for 
misinterpreting this. How much of the dependence on IPAs with 
the associated problems and benefits is--or let's just say 
overdependence on IPAs is because we in Congress don't 
authorize enough money for long-term federal staff, and 
therefore, you have to take resources out of the research 
budget to fund the IPAs? And what if we had--if we committed 
more money to the full-time government service, you know, say, 
a 50/50 ratio or whatever it is, would we be able to have more 
money for the research that then does so much good things?
    Dr. Buckius. Well, so that----
    Mr. Beyer. Is this--are IPAs a back way of avoiding what 
decisions we make in our Budget Committee?
    Dr. Buckius. My answer to that would be no. Regardless of 
where you tell us to put the money for an IPA, we would still 
think that they're essential and we would still hire them and 
recruit them the way we do now, regardless of where the money 
comes from for the reasons I've just stated. Because of the 
nature of this agency, because of the fact that we don't have 
these large facilities doing fundamental research, we need this 
infusion of folks. We take it out of R&RA. If it was in AOAM, I 
have no input on that because we still would need those folks 
in the agency in order to be able to make us have the impact 
that we're having.
    Mr. Beyer. Okay. Thank you, Doctor.
    I yield back, Mr. Chairman.
    Chairman Loudermilk. Thank you, Mr. Beyer.
    The Chair now recognizes Mr. Posey for five minutes.
    Mr. Posey. Thank you, Mr. Chairman.
    Dr. Buckius, can you describe in one sentence the rotators 
or the IPA employee--I mean would you call them like rental 
experts that you bring in, just the shortest possible 
description for me.
    Dr. Buckius. Of what they do or who they are?
    Mr. Posey. Both.
    Dr. Buckius. Okay. They're typically leaders and scholars 
from around the country and they provide two things for us. 
They provide an infusion of new, creative, leading-edge 
thought, as well as function to perform some of the functions--
--
    Mr. Posey. Okay. But--so they're part-timers you bring on?
    Dr. Buckius. No, they're full-time employees for a short 
period of time.
    Mr. Posey. For a short period of time, okay. Can you give 
me an example of one or two of them that you think are 
especially valuable in what they do?
    Dr. Buckius. Let me be personal because I've done all--so 
I've been a program person----
    Mr. Posey. No, not you. Give me another one. Use another 
one.
    Dr. Buckius. Good, because I don't like to talk about 
myself. In the case of one of our leaders who comes from a 
major institution, was a dean, leads one of our major 
directorates, has moved that directorate into different areas 
that weren't before, hasn't even taken employees----
    Mr. Posey. Okay. That's satiric platitudes. Anything really 
specific you can tell me?
    Dr. Buckius. I think we're looking for leadership and 
that's leadership.
    Mr. Posey. Well, you can say that about anybody. In March 
2013 it was stated that the NSF paid 54 IPAs' salaries 
exceeding the federal executive pay limit of almost $180,000, 
which is about probably five times the average annual wage in 
my district, which is the highest salary earned by federal 
employees at NSF, including presidential appointees. Of these 
54 IPAs, the NSF paid 34 a salary of over $200,000 in annual 
salary and over $300,000 to an Assistant Director. Do you 
believe that was appropriate compensation?
    Dr. Buckius. Yes, I do.
    Mr. Posey. Okay. What procedures does NSF have in place to 
properly assess the cost-to-benefit ratio of these high-dollar 
rental people or temporary people?
    Dr. Buckius. NSF over the years has done a number of 
independent studies by various organizations. NAPA, OPM, GAO 
have all done assessments of our program and they have 
recommended changes, just like Ms. Lerner has recommended. At 
the same time, they've given very positive remarks about the 
program.
    Mr. Posey. Okay. Fifty-four IPAs earned a salary over the 
federal executive pay limit. Do you believe that's fair to the 
NSF's own employees who cannot receive compensation that 
exceeds a pay grade of almost $180,000?
    Dr. Buckius. Remember the reason why we bring them. We 
bring them to do function, and we bring them to do leadership 
in forefront activities----
    Mr. Posey. I know. They have talent that your own people 
don't have presumably.
    Dr. Buckius. No, they have different talents.
    Mr. Posey. Oh, okay. I was surprised to find Ms. Lerner's 
revelation that the temporary employees you bring in are 
responsible for making award funding decisions. Can you tell me 
if any of them had any hand in awarding these grants: 340,000 
to study human-set fires in New Zealand in the 1980s; 227,000 
to study pictures of animals in National Geographic magazine; 
$200,000 to study Turkey's failing fashion industry; 1.5 
million to study pasture management in Mongolia; 50,000 to 
study civil lawsuits in Peru in 1600 to 1700; 200,000 to study 
gender bias in Wikipedia pages; 164,000 to study Chinese 
immigration in Italy; 170,000 for two studies of native 
people's basket weaving in Alaska; 487,000 to study textiles 
and gender in Iceland from 874 to 1800, the Viking Era; 136,000 
to repatriate recordings of traditional Alaskan music from the 
1940s; $50,000 for stem cell education in Sri Lanka; 15,000 to 
study gender and fishing practices at Lake Victoria, Africa; 
147,000 to study international marriages between France and 
Madagascar? And, you know, I have pages here, but can you tell 
me if any of these temporary employees were responsible for 
funding any of those projects absolutely unequivocally yes or 
no?
    Dr. Buckius. I cannot tell you who has funded those but we 
surely can get you that information, whether they're federal 
employees or rotators.
    Mr. Posey. But they would have--rotators would have 
responsibility to fund crap like this, right? I mean----
    Dr. Buckius. Rotators----
    Mr. Posey. --projects like this, excuse me. I'm sorry.
    Dr. Buckius. --could fund projects like that, yes.
    Mr. Posey. Thank you. I see my time is up, Mr. Chairman. I 
yield back.
    Chairman Loudermilk. Thank you, Mr. Posey.
    The Chair now recognizes Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman.
    Yeah, I certainly agree, Dr. Buckius, that the rotator 
program is an essential element of the NSF mission, as you 
stated, and I have to say it's a little surprising to me to 
hear such strong Republican support for federal employees, as 
we've heard here, but welcome that.
    But I think the Rotator Program is very important. But--and 
I've been a defender of it, and when there have been issues 
that have come up, I've defended it. But there are issues that 
need to be dealt with here. And I wanted to ask about a couple 
of the IG recommendations that have not been--my understanding 
is that NSF has not followed through on the recommendations. 
And these two are, first of all, that the IG recommended the 
NSF appoint a single individual to help champion NSF Rotator 
Program, would also help improve NSF oversight of the program. 
The second one is the IG recommended that the NSF produce 
formal guidelines on travel and possible telework for those 
engaged in the IR/D program. Could you address why NSF has not 
followed through on either of those recommendations?
    Dr. Buckius. The first one regarding an individual, I 
cannot really answer that question. As I said, I came in 
October and I don't know what the practices were before then. I 
think it's a very good recommendation. I see no reason why we 
shouldn't do that.
    On the telework issue, we are starting to implement that. 
I'm not confident it's going to see the significant cost-
savings that it's been purported to. I think we have to run the 
experiment and see if this actually plays out.
    The main issue that was brought up was regarding cost-
share. We ask every IPA when they are working on their contract 
if they will cost-share, and some can and some do not. Part of 
the problem I think is with a lot of the public institutions 
around the country now who are not seeing the budgets that they 
saw before, and therefore, providing cost-share for these kinds 
of activities is becoming harder and harder. That's a worry 
from the point of view of cost savings.
    Mr. Lipinski. Okay. And I was going to ask this the other--
two questions the other way around. I wanted to make sure you 
had an opportunity to answer those two.
    Ms. Lerner, can you just mention some of the things very 
briefly--now, you had discussed some of these. What has the NSF 
recommendations--have they implemented in a way that you think 
has been very responsive and helpful to the Rotator Program?
    Ms. Lerner. I think NSF has done a fantastic job of 
implementing the recommendations that we made with respect to 
the IR/D program. And we made recommendations initially out of 
a Management Implication Report and NSF set up an IR/D task 
group. We also did a further audit, made additional 
recommendations, and NSF has been tremendously responsive. When 
we did our audit, they had no idea how much money they were 
spending on the IR/D program and they didn't know how much time 
people were charging. They now have codes to track both of 
those things. There's an annual report on costs associated with 
the IR/D program that they've provided in 2013/2014, and I'm 
sure they will in 2015, so there's much more oversight of the 
program that's taking place.
    They have provided more training for people who are using 
the program and who are approving the proposals for people who 
want to participate in the programs so there is a better 
understanding of how that is working. So I think in that area 
in particular you've seen a great way that the agency can 
respond to concerns that the IG has raised and take them to the 
next level.
    Mr. Lipinski. And not to diminish any of your 
recommendations, but what do you think are the most important 
ones that NSF still needs to follow up on?
    Ms. Lerner. I think certainly taking more concrete actions 
with respect to the recommendations that we made about the cost 
of rotators would be quite important.
    What we recognized is that there are a large number of 
rotators who are not the senior managers and so it seems like 
after an initial period for them to get used to the Foundation, 
there are real opportunities to use telework more robustly, 
especially with all of the technical tools that we have and the 
ability to run virtual panels as well. So, I really would like 
to see more action with respect to that recommendation.
    And on the cost-sharing, I mean certainly we recommend--as 
people are asked about whether they want to cost-share but we 
did not see, when we did our audit work--much in the way of 
negotiation. So it would be helpful if they document that they 
had outlined the benefits and that made it easier for them to 
really negotiate what was finalized.
    Mr. Lipinski. Thank you. I yield back.
    Chairman Loudermilk. All right. Here's the posture we're in 
right now. Votes obviously have been called. We only have two 
other Members who are here to ask questions. And what I propose 
is if each Member would keep their questions to less than five 
minutes and if the witnesses would be succinct and concise with 
their answers, we could go ahead and finish out. Otherwise--
that way we wouldn't have to hold you over until after votes if 
that works with everyone.
    All right. So at this point the Chair recognizes Mr. 
Westerman.
    Mr. Westerman. Thank you, Mr. Chair, and I'll talk fast for 
a guy from Arkansas.
    Ms. Lerner, your most recent report focused on an IPA 
conflict of interest at the NSF and found that NSF failed to 
develop a clear plan to manage and mitigate the IPA's known 
conflict of interest from the outset. Is it true that it took 
months for the IPA to meet with their division conflicts 
official to discuss how to handle the conflict of interest?
    Ms. Lerner. That's what we were informed.
    Mr. Westerman. So given the seriousness of conflict of 
interest and those type of issues, have you found that this 
kind of delay is commonplace at NSF based on your work?
    Ms. Lerner. We haven't looked broadly to see if this issue 
is recurring. That's certainly something that I think we want 
to talk with the agency about what we do moving forward to 
determine the breadth of these issues.
    Mr. Westerman. Do you believe proper procedures are in 
place to mitigate this kind of issue in the future?
    Ms. Lerner. If I did, we would not have made the 
recommendations that we did. I think what we identified are 
real opportunities to tighten controls so that it's clearer to 
everybody that when these people come on, there needs to be 
prompt action to train them, to identify the conflicts, and to 
make sure that there's a plan in place to manage them.
    Mr. Westerman. Okay. So from your work when you 
investigated an IPA at the NSF you found that it had clear 
conflicts of interest present and they ultimately contributed 
to the awarding of three grants that you found did not meet the 
merits consistent with standard NSF practices. That is correct?
    Ms. Lerner. It wasn't our determination. It was the 
determination of--the reviewers that raised questions about 
that process, yes.
    Mr. Westerman. So what were the total dollar figures of 
those grants?
    Ms. Lerner. I believe total they came to about $2 million 
but I'd have to get back to you with the precise number.
    Mr. Westerman. Are they still open?
    Ms. Lerner. They are still open and as of the end of May 
there was about $400,000 remaining on those three awards.
    Mr. Westerman. Okay. So one of the more startling 
observations made in your testimony is about how a rotator 
violated a one-year ban when applying for $14 million in NSF 
funding and how it appears that someone within the agency tried 
to cover that person's tracks by creating a different ID number 
for that person. Do you think that this is an isolated incident 
with one person knowingly and willfully ignoring government 
ethics rules or do you have concerns that ethics violations are 
more widespread?
    Ms. Lerner. I certainly hope that this particular creation 
of a second PI ID is isolated, and I don't have evidence to 
show that that is a widespread problem, but what we also found 
is it would be very difficult for us to tell if who was doing 
that. So that is--certainly is a matter of concern for us.
    Mr. Westerman. So do you think that a single person 
overseeing all of NSF's rotating personnel might do a better 
job in ensuring compliance with government ethics laws?
    Ms. Lerner. A single person overseeing? I think that having 
one person with broad responsibility to look at the use of 
rotators and to ensure that they are being appropriately 
trained and sensitive to the issues of conflicts would help. 
Right now, the management is very diffuse and that makes it 
difficult to ensure accountability.
    Chairman Loudermilk. In the interest of time so we have one 
more Member, is it all right if we----
    Mr. Westerman. I'll yield back, Mr. Chairman.
    Chairman Loudermilk. Okay.
    Mr. Westerman. Thank you.
    Chairman Loudermilk. Thank you, Mr. Westerman.
    The Chair recognizes Mr. Tonko.
    Mr. Tonko. Thank you, Mr. Chair.
    While NSF's system is by no means perfect, I'm concerned by 
the majority's continued fixation with NSF's peer-review 
process, which in large part relies on IPAs. Like any 
organization, NSF's process--processes have room for 
improvement.
    In response to past IG reports, NSF has taken concrete 
steps to improve its practices. It is likely that similar steps 
will be taken in response to the most recent report. However, 
based on what I have read, these reports are not signs of 
systemic problems that require dramatic changes to the overall 
structure of the Rotator Program. In fact, the costs at NSF has 
agreed to incur, which are associated with the Rotator Program, 
in part show how highly NSF values IPAs.
    The NSF and our system of university-based research is the 
envy of the rest of the world. NSF's model for funding has made 
this program the premier university-based scientific research 
program. And although we all want to limit costs and be 
accountable, certainly when it makes sense we should be careful 
and weigh the savings against any possible reduction in 
associated benefits.
    Now, Dr. Buckius, in regard to the last series of 
questions, I'm assuming you might have a response. Instead of 
going with my questions, I'll give you the time that I have 
remaining to perhaps respond to that earlier series of 
questions.
    Dr. Buckius. Thank you. I appreciate that. Conflicts of 
interest are taken very seriously at the National Science 
Foundation. This is one case. This is one individual. That 
individual was recommended for termination and that appointment 
was not renewed by NSF. Remember also NSF is the one that 
discovered this and told the IG, which subsequently 
investigated it. We also then took two of our staff that have 
been talked about and administratively removed them in 
accordance with established procedures and applicable 
regulations. We proceeded very deliberately in this case.
    I've been at NSF, like I said, the last six months. I was 
here four years before. This is the only case I have heard of. 
I did a couple of checks around the agency. We found one person 
who knew of one other case.
    The point I'm trying to make is conflicts of interest are 
taken very, very seriously. We can improve. Definitely we can 
improve and we will try, but this is just one case. I think 
we've tried to handle it the best way we possibly can. It's not 
acceptable what happened. We're not accepting what the IPA did, 
nor are we accepting what the two NSF staff members did, and 
we're trying to manage that one particular case very, very 
carefully.
    The 10 or so recommendations that the IG provided us on 
Friday--I got them Friday afternoon--and I've had a chance to 
review them. We will definitely try to meet all of those 
recommendations as best we possibly can.
    Mr. Tonko. Can I get another question in or are we ready to 
close?
    Chairman Loudermilk. It looks like we're going to need to 
close. We're running out of time quickly to get to the Floor to 
vote so----
    Mr. Tonko. Thank you. Thank you, Mr. Chairman.
    Chairman Loudermilk. Thank you, Mr. Tonko.
    Again, I thank the witnesses for their testimony and 
Members for their questions. I would like to enter into--enter 
the following documents into the record for the 2010 IG report, 
the 2012 IG report, the 2013 IG report, and the June 2015 
redacted IG report.
    Without objection, so ordered.
    [The information appears in Appendix II]
    Chairman Loudermilk. And I'll also add Chairman Smith's 
opening statement.
    Without objection, so ordered.
    [The prepared statement of Chairman Smith appears in 
Appendix II]
    Chairman Loudermilk. The record will remain open for two 
weeks for additional written comments and written questions for 
the Members. The hearing is hereby adjourned. Thank you.
    [Whereupon, at 10:26 a.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions
Responses by Dr. Richard Buckius


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record




             Statement submitted by full Committee Chairman
                             Lamar S. Smith

    Thank you Chairman Loudermilk for holding this hearing. And 
I thank the witnesses for being here to share their expertise.
    The National Science Foundation (NSF) plays an important 
part in ensuring that America remains on the cutting edge of 
science and a world leader in scientific research.
    It is important that the Science Committee conducts robust 
oversight of the NSF to ensure that the American people's tax 
dollars are used in the nation's best interest.
    This morning's hearing will focus on the NSF's use of what 
is referred to as the ``Rotators Program.''
    This program allows the NSF and other science agencies to 
have external researchers and educators come into the NSF on a 
temporary basis. These individuals use their expertise to help 
ensure that the NSF continues to pursue high quality research.
    Nearly 1/3 of NSF program officers are rotators, so 
oversight of this program is essential given the influence 
these nonpermanent government employees have on the NSF's 
overall mission. These researchers and educators are ``on 
loan'' from institutions that likely had, currently have, or 
will have grants from the NSF. It is paramount that caution is 
used to avoid even the appearance of impropriety or bias.
    We should ensure that hard-earned tax dollars are being 
used appropriately. This is not the government's money, it's 
the people's money. This is even more troubling since the cost 
of an average rotator is $36,000 more than the average 
permanent federal employee.
    The costs associated with these rotators become difficult 
to justify when the Committee discovers that, as described in 
an Inspector General report from this month, one of these 
rotators inappropriately approved grants for her home 
institution.
    These types of quid pro quo arrangements undermine the 
credibility of both the NSF's ability to properly manage the 
rotator program, as well as the institutions who seek grants 
from the NSF.
    Conflicts of interest are serious matters and are typically 
dealt with severely. I know the incident described in the IG 
report took place before Dr. France C?rdova became the Director 
of NSF. However, I am still concerned about the apparent lack 
of safeguards in place to ensure that this type of behavior 
does not continue in the future.
    I hope the witnesses today will explain where the NSF's 
oversight procedures in place broke down and allowed this to 
occur.
    I look forward to hearing about the Inspector General's 
recommendations for how to improve the oversight of this 
program and how to prevent this from occurring again in the 
future. I also am interested to learn from the NSF what their 
timeline is for implementing these recommendations.
    Unfortunately, if it becomes apparent that the NSF is not 
capable of handling this type of program, then maybe we should 
consider legislation that limits the use of rotators moving 
forward. Thank you Mr. Chairman and I yield back.
          Statement submitted by full Committee Ranking Member
                         Eddie Bernice Johnson

    Good morning. I want to the thank the Oversight and 
Research & Technology Subcommittee Chairmen and Ranking Members 
for holding this hearing, and I also want to thank the 
witnesses for their testimony.
    I want to echo the comments of Ranking Members Beyer and 
Lipinski regarding the value of the Rotator program at NSF, and 
also the need to strengthen policies when mistakes are made and 
potential management weaknesses are identified. In a series of 
recent reports, the Inspector General has uncovered some areas 
where the agency needs to implement additional controls. I 
encourage the agency to address the IG's recommendations 
expeditiously.
    NSF's gold-standard merit-review system is not the subject 
of this morning's hearing. However, it is the subtext of the 
most recent report from the IG's office. So let me take this 
opportunity to reiterate my confidence in the strength and 
integrity of NSF's merit-review policies and processes. NSF 
funds 11,000 grants per year. In the case we are hearing about 
today, in which a problem did arise, the problem was quickly 
identified and addressed by agency staff. We should take that 
as good news.
    Let me also reiterate my confidence in the dedication and 
integrity of NSF's staff, both the federal employees, and those 
scientists and engineers to come to the agency for a temporary 
appointment as rotators. NSF's exemplary staff make the agency 
and its merit-review system the envy of governments and 
scientists across the world.
    Today's hearing raises several legitimate oversight issues. 
I hope that this Committee will use this hearing as an 
opportunity to learn from these two esteemed witnesses about 
what can be done better so that even rare incidents, such as 
the one NSF found and the IG has now reported upon, can be 
avoided in the future.
    With that I yield back.
          Report submitted by Representative Barry Loudermilk


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
                                 
                                 
                                 
</pre></body></html>
